<html>
<title> - LEGISLATIVE FIELD HEARING ON H.R. 3734, TO AMEND THE SURFACE MINING CONTROL AND RECLAMATION ACT OF 1977 TO PROVIDE SUPPORT TO MINING SCHOOLS, AND FOR OTHER PURPOSES, ``MINING SCHOOLS ENHANCEMENT ACT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


H.R. 3734, TO AMEND THE SURFACE MINING CONTROL AND RECLAMATION ACT OF 
  1977 TO PROVIDE SUPPORT TO MINING SCHOOLS, AND FOR OTHER PURPOSES, 
                  ``MINING SCHOOLS ENHANCEMENT ACT''

=======================================================================

                       LEGISLATIVE FIELD HEARING

                              BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

          Monday, December 14, 2015 in Idaho Springs, Colorado

                               __________

                           Serial No. 114-26

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
98-011 PDF                     WASHINGTON : 2016                        
      
                    
_________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd9a8d92bd9e888e899598918dd39e9290d3">[email&#160;protected]</a>  
                     
                     
                     
                     
                     
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Wm. Lacy Clay, MO
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                
                                ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
            ALAN S. LOWENTHAL, CA, Ranking Democratic Member

Louie Gohmert, TX                    Jim Costa, CA
Robert J. Wittman, VA                Niki Tsongas, MA
John Fleming, LA                     Matt Cartwright, PA
Glenn Thompson, PA                   Donald S. Beyer, Jr., VA
Cynthia M. Lummis, WY                Ruben Gallego, AZ
Dan Benishek, MI                     Lois Capps, CA
Jeff Duncan, SC                      Jared Polis, CO
Paul A. Gosar, AZ                    Vacancy
Raul R. Labrador, ID                 Vacancy
Paul Cook, CA                        Vacancy
Garret Graves, LA                    Vacancy
Ryan K. Zinke, MT                    Vacancy
Jody B. Hice, GA                     Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Cresent Hardy, NV
Rob Bishop, UT, ex officio
                              ----------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Monday, December 14, 2015........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     6
        Prepared statement of....................................     7
    Hardy, Hon. Cresent, a Representative in Congress from the 
      State of Nevada............................................     4
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     3
    Perlmutter, Hon. Ed, a Representative in Congress from the 
      State of Colorado..........................................     5

Statement of Witnesses:
    Freeman, Leigh, Principal, Leigh Freeman Consultancy, Denver, 
      Colorado...................................................     8
        Prepared statement of....................................    10
    Miller, Hugh, Associate Professor of Mining Engineering, 
      Colorado School of Mines, Golden, Colorado.................    13
        Prepared statement of....................................    15
    Nuttbrock, Nancy, PE, Associate/Texas Regional Leader, 
      Brierley Associates, Houston, Texas........................    19
        Prepared statement of....................................    20

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    29
                                     


 
  LEGISLATIVE FIELD HEARING ON H.R. 3734, TO AMEND THE SURFACE MINING 
   CONTROL AND RECLAMATION ACT OF 1977 TO PROVIDE SUPPORT TO MINING 
  SCHOOLS, AND FOR OTHER PURPOSES, ``MINING SCHOOLS ENHANCEMENT ACT''

                              ----------                              


                       Monday, December 14, 2015

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                        Idaho Springs, Colorado

                              ----------                              

    The subcommittee met, pursuant to call, at 10:15 a.m., in 
the Underground Classroom of the Edgar Mine, Colorado School of 
Mines Experimental Mine, 365 8th Avenue, Idaho Springs, 
Colorado, Hon. Doug Lamborn [Chairman of the Subcommittee] 
presiding.
    Present: Representatives Lamborn, Bishop, and Hardy.
    Also Present: Representative Perlmutter.
    Mr. Lamborn. The Subcommittee on Energy and Mineral 
Resources will come to order.
    Before we get started with our committee hearing, I would 
like to first recognize Matt Schreiner, the Mine Manager here 
at the Edgar Mine, for a safety briefing.
    Mr. Schreiner. Thank you. Welcome all to the Edgar Mine. I 
am glad that we can do this here today.
    I will take a few minutes. Throughout your time underground 
today, I need everyone to please keep your hard hats on at all 
times. As you travel throughout the facility, please be mindful 
of your footing. You want to avoid slips, trips, and falls. You 
will see equipment, valves, disconnects, and switches. We ask 
that you do not touch any of that.
    Please stay together as a group; and if you have any 
questions about the mine, mine operations, or safety, please 
contact myself or some of the other workers that are identified 
by cap lamps on their hard hats. Thank you.
    Mr. Lamborn. All right, thank you.
    The subcommittee is meeting today to hear testimony on a 
bill introduced by Representative Cresent Hardy, who is with us 
here today, H.R. 3734, a bill to amend the Surface Mining 
Control and Reclamation Act of 1977, to provide support to 
mining schools, and for other purposes. It is the ``Mining 
Schools Enhancement Act.''
    By way of introduction, I am Doug Lamborn, the Chairman of 
the Subcommittee on Energy and Mineral Resources. I also 
represent the 5th District of Colorado, which is south and east 
of here.
    Also with us today is Congressman Rob Bishop from Utah, the 
Chairman of the House Natural Resources Committee, and 
Congressman Cresent Hardy of Nevada.
    We also have the pleasure of having with us today Ed 
Perlmutter of Colorado, a friend and colleague of many years 
who represents the Colorado School of Mines campus.
    Since Mr. Perlmutter does not serve on the committee, I ask 
unanimous consent that he be allowed to sit with the committee 
and participate in today's hearing.
    Hearing no objection, so ordered.
    I now recognize myself for an opening statement.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Today the subcommittee is meeting to discuss 
H.R. 3734, the ``Mining Schools Enhancement Act,'' that was 
introduced on Friday, October 9 by Mr. Hardy and Mr. 
Perlmutter. Thank you again for joining us today.
    I am excited to be chairing what is, to my understanding, a 
historical first for Congress, the first congressional hearing 
held underground in a mine. What better place to gather and 
discuss the need for future mining engineering experts, a need 
felt by industry, states, and the Federal workforce, as well as 
nonprofits.
    This bill is the final in a three-pronged response to the 
EPA's Gold King and Standard Mine spills that occurred here in 
Colorado in August and September of this year. These three 
bills provide a path forward to tackle the problem of abandoned 
mines that need remediation.
    My legislation, H.R. 3843, includes a Good Samaritan title, 
which provides limited liability relief for existing conditions 
at abandoned mine land (AML) sites for the Clean Water Act and 
the Comprehensive Environmental Response, Compensation and 
Liability Act (CERCLA), to encourage volunteer cleanup of both 
coal and non-coal AML sites.
    H.R. 3844, sponsored by Congressman Jody Hice of Georgia, 
provides a way for concerned individuals and organizations, 
like environmental groups that have been so vocal on this 
issue, to raise money to help fund the cleanups through the 
private sector.
    This bill, while receiving seed money from claim 
maintenance fees, provides a mechanism for unlimited funding 
through the non-governmental sector.
    In the committee's investigation of the Gold King Mine 
spill, we discovered that out of 15,326 employees that the EPA 
has, there is not a single mining engineer--out of 15,326 
employees. They only have 68 geologists, only two of which are 
assigned to Region 8, where these unfortunate spills occurred. 
In contrast, out of 8,790 employees, the Bureau of Land 
Management (BLM), does have 36 mining engineers and 170 
geologists.
    The U.S. Bureau of Reclamation, in the Department of the 
Interior's recent Technical Evaluation of the Gold King Mine 
Incident Report, found that in abandoned mine guidelines and 
manuals, there is significant emphasis on environmental 
issues--``with little appreciation for the engineering 
complexity of some abandoned mine projects that often require, 
but do not receive, a significant level of expertise.''
    This brings us to why we are here today. The Mining Schools 
Enhancement Act, sponsored by Congressman Hardy, provides 
support to the mining schools around our Nation which produce 
the mining engineers of the future. In part, this is to ensure 
that the Nation has the technical expertise to competently 
perform cleanup of AML sites.
    I am excited to hear from our witnesses today. Leigh 
Freeman, a professional talent recruiter for the mining 
industry, will be speaking on behalf of the National Academies 
of Science on a recent report from the Academies. This report 
on the emerging workforce trends in the U.S. energy and mining 
industries was instrumental in the development of this 
legislation.
    I would also like to welcome Dr. Hugh Miller, a Professor 
of Mining Engineering at CSM, the Colorado School of Mines; and 
Nancy Nuttbrock, who was with the Wyoming Department of 
Environmental Quality until 2014, where she was Deputy 
Director.
    I want to thank all the witnesses for being here, and I 
look forward to hearing from them today.
    [The prepared statement of Mr. Lamborn follows:]
Prepared Statement of the Hon. Doug Lamborn, Chairman, Subcommittee on 
                      Energy and Mineral Resources
    Today, the subcommittee is meeting to discuss H.R. 3734, the 
``Mining Schools Enhancement Act'' that was introduced on Friday, 
October 9 by Mr. Hardy and Mr. Perlmutter. Thank you for joining us 
today.
    I'm excited to be chairing what is, to my understanding, a 
historical first for Congress. The first congressional hearing held 
underground in a mine. What better place to gather and discuss the need 
for future mining engineering experts, a need felt by industry, states 
and Federal workforces, and nonprofits alike.
    This bill is the final of a three-pronged response to the EPA's 
Gold King and the Standard Mine spills that occurred in my state, 
Colorado, in August and September of this year. These three bills 
provide a path forward to tackle the problem of abandoned mines that 
need remediation.
    My legislation, H.R. 3843, includes a Good Samaritan title, which 
provides limited liability relief for existing conditions at abandoned 
mine land (AML) sites for the Clean Water Act and the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA), to 
encourage volunteer cleanup of both coal and non-coal AML sites.
    H.R. 3844 sponsored by Congressman Hice provides a way for 
concerned individuals and organizations, like environmental groups that 
have been so vocal on this issue, to raise money to help fund the 
cleanups through the private sector. This bill, while receiving seed 
money from claim maintenance fees, provides a mechanism for unlimited 
funding thought the non-government sector.
    In the committee's investigation of the Gold King mine spill, we 
discovered that out of 15,326 employees EPA has, they have no `mining 
engineers' and only 68 geologists, two of which are assigned to Region 
8 where the spills occurred. In contrast, out of 8,790 employees, BLM 
has 36 `mining engineers' and 170 geologists.
    The U.S. Bureau of Reclamation, in the Department of the Interior's 
recent Technical Evaluation of the Gold King Mine Incident Report, 
found that in ``abandoned mine guidelines and manuals'' there is 
significant emphasis on environmental issues--``with little 
appreciation for the engineering complexity of some abandoned mine 
projects that often require, but do not receive, a significant level of 
expertise.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.usbr.gov/docs/goldkingminereport.pdf (page 2).
---------------------------------------------------------------------------
    This brings us to why we are here today. The ``Mining Schools 
Enhancement Act'' sponsored by Congressman Hardy provides support to 
the mining schools around our Nation which produce the mining engineers 
of the future. In part, this is to ensure that the Nation has the 
technical expertise to competently perform cleanup of AML sites.
    I'm excited to hear from our witnesses today. Leigh Freeman, a 
professional talent recruiter for the mining industry, will be speaking 
on behalf of the National Academies of Science on a recent report from 
the Academies. This report on emerging workforce trends in the U.S. 
Energy and Mining Industries was instrumental in the development of 
this legislation.
    I'd also like to welcome, Dr. Hugh Miller, a professor of mining 
engineering at CSM; and Nancy Nuttbrock, who was at the Wyoming 
Department of Environmental Quality until 2014 where she was Deputy 
Director.
    I want to thank all the witnesses for being here and look forward 
to hearing from them today.

                                 ______
                                 

    Mr. Lamborn. I would now like to recognize the author of 
H.R. 3734, Representative Hardy, for a statement on his bill.

   STATEMENT OF THE HON. CRESENT HARDY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Hardy. I would like to thank the Chairman, and also 
Chairman Bishop for holding this hearing today. And thank you, 
Congressman Perlmutter, for going on and serving as an 
important asset to help get this bill through.
    I would also like to extend a special thank you to the 
Colorado School of Mines for hosting this today. I appreciate 
you for that.
    As a fifth-generation son of farmers and ranchers, and a 
former general engineering contractor, I am all about hard work 
and getting my hands dirty. The Edgar Experimental Mine here in 
Idaho Springs is my kind of environment. It is truly a 
privilege to get out of Washington and see what the next 
generation of scientists and engineers will learn in their 
craft.
    There is not a single sector of the economy that is not 
touched by mining, whether it be minerals to power our 
industrial companies, metals that allow our consumer 
electronics and our military to function, or the materials I 
relied on as a contractor to build roads, bridges, and dams. 
America's economy, energy, and national security all depend on 
a capable mining and engineering workforce. Yet, despite the 
vital importance of these highly skilled and technical experts 
in the mining disciplines to private industry, academic 
institutions, and government agencies, we have witnessed a 
dangerous decline in the number of accredited mine schools and 
the graduates that they produce.
    This generated a vicious cycle that has a devastating 
impact across the board. We are at a generational crossroads as 
the demographics of the U.S. workforce continue to change. With 
Baby Boomers retiring in large numbers, experts in the mine 
disciplines are needed now more than ever. Private sector 
mining companies are in a constant search for STEM graduates 
with the capabilities to understand and employ advanced 
technologies, even in entry-level positions.
    At our regulatory agencies, the situation is equally 
serious. According to Richard Perry, the Administrator of the 
Nevada Division of Minerals, agencies have had to hire 
graduates that do not have the technical skills required to 
manage and evaluate mine-related projects, mine reclamation and 
closure, or to evaluate environmental risk associated with 
orphan mines. This is due to the absence of available graduates 
with degrees in mining and mineral engineering and may lead to 
more environmental disasters like the Gold King Mine water 
disaster and spill.
    As schools that produce the very mining engineering 
graduates that are shrinking in supply lack access to Federal 
funding for research, it has tripled the pipeline for new 
faculty and made mining education programs less and less 
sustainable.
    So, what can we do about it? To start, we can amend SMCRA 
by directing the Office of Surface Mining Reclamation and 
Enforcement to distribute 70 percent of the funding made 
available for applied science transfer programs and accredited 
mining schools. This will enhance and support those educational 
programs and involve more undergraduate and graduate students 
in critical research.
    The Mining School Enhancement Act is a common-sense 
bipartisan bill that would do just that. By supporting and 
training mineral engineers and scientists in the field of 
mining minerals resources and technology, my bill helps to 
restore the original intent of the Office of Surface Mining 
under SMCRA and will attack the shortage of mining engineers in 
this country head-on.
    To sum it all up, the Nation needs more mining engineers. 
To ensure that more mining engineers are produced, our mining 
schools must be sustained; and to sustain our mining schools, 
they need a strong faculty; to ensure that strong faculty, new 
professors need to make it through the tenure process; to make 
it through the tenure process, new professors need to conduct 
research; to conduct research, professors need to have Federal 
funding. We need to provide more funding to support mining 
schools, and the Mining Enhancement Act will help accomplish 
this.
    Again, I would like to thank my colleagues, the Colorado 
School of Mines, and the witnesses for being here today. I look 
forward to hearing the testimony.
    Mr. Lamborn. Thank you.
    I now recognize the original co-sponsor of this 
legislation, Representative Perlmutter, for his opening 
remarks.

   STATEMENT OF THE HON. ED PERLMUTTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Perlmutter. Thank you. I want to thank Congressman 
Lamborn and Congressman Bishop for letting me participate in 
this underground hearing today.
    [Laughter.]
    Mr. Perlmutter. It is really actually very exciting. I also 
want to thank Congressman Hardy for sponsoring this bill to 
help train and educate our mining engineers and scientists of 
the future. This is badly needed both in terms of developing 
and maintaining the extraction of our natural resources in a 
solid way, and also dealing with assets that were closed a long 
time ago where it needs help. It needs real science and real 
engineering to do it right.
    I would like to thank the committee for showcasing the 
Colorado School of Mines, which is one of the premiere 
engineering and research institutions in the world, and has 
students from all over the world that participate in it. I want 
to thank the School of Mines for hosting our hearing today. 
Thank you.
    Mr. Lamborn. Thank you.
    I now recognize the Chairman of the Full Committee, the 
gentleman from Utah, Mr. Bishop, for a statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    Mr. Bishop. I want to thank everyone who is here as well, 
especially the Colorado School of Mines for hosting this event. 
This is weird.
    [Laughter.]
    Mr. Bishop. It is great to be here. I appreciate Doug, 
Cresent, and Ed for joining us here. Thank you for coming down, 
for putting all of this together.
    We are here to hear testimony, specifically about H.R. 
3734, from our three witnesses. That is part of a larger 
package that we have put together that deals with the Gold King 
Mine in the omnibus bill that should have been prevented and 
could have easily been prevented.
    These three bills that deal with the Good Samaritan Act, 
that deal with getting more engineers, more experts--however 
you want to define that--into the field, as well as involving 
the private sector and private money coming in with the Hice 
bill, they all are complementary, to be proactive in finding a 
solution so that none of this happens again.
    Secretary Jewell finally appeared before our committee last 
week, and there was something a little bit troubling about the 
report that the Interior Department, the Bureau of Reclamation 
specifically, gave to us. It did show what I think is a lack of 
transparency. There was unclear objectivity. It was a very 
narrowly focused investigation. But, it also showed that the 
government, specifically EPA in this situation, was blatantly 
mishandling the spill, both before and afterwards, and that we 
need to do something different.
    We have 400,000 abandoned mines still here in the country, 
and it brought into question the ability of the Federal 
Government to adequately manage those other mines and to clean 
them up, whether they can handle it or not.
    So, as Doug said, it is frustrating to us that EPA, with 
their 15,000-plus employees, has no mining engineers. Our 
committee, by serendipity, actually has more mining engineers 
than EPA does.
    [Laughter.]
    Mr. Bishop. That is why Cresent's and Ed's bills are so 
significant, because obviously there has been a reduction of 
the students that we are putting out into that sector, and 
there has to be some kind of assistance to make it happen.
    We have an aging workforce, all sorts of good jobs that are 
out there, and potential. Americans need to have those jobs, 
and we need to start training Americans to take those jobs and 
expand and make better an industry that still has a lot to give 
to this country. That is very important to us.
    So, I am looking forward to that. I am happy to be here 
with my colleagues. I appreciate the witnesses who are here. I 
am looking forward to this hearing.
    This is something that I hope we are taking lots of 
pictures of, because nobody, nobody is going to believe this 
back in Washington.
    [Laughter.]
    Mr. Bishop. One last thing I would like to ask of our 
staff. I appreciate the hard work they put in to make this 
happen.
    How many of these do you think I can pack today?
    [Laughter.]
    Mr. Bishop. There is no bathroom here, so this will be----
    [Laughter.]
    Mr. Bishop. I will apologize in advance, but we do have a 
plane to catch back to Washington. So between the plane ride 
and these three bottles, we may make a quick exit.
    [Laughter.]
    Mr. Bishop. Thank you all for being here. I appreciate 
being a part of this.
    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    First, I would like to thank the Colorado School of Mines for 
hosting us for this field hearing to discuss H.R. 3734, the ``Mining 
Schools Enhancement Act,'' introduced by our colleague, Mr. Hardy.

    H.R. 3734 is part of a larger mining development and reclamation 
bipartisan reform package that also includes two other bills:

    -- H.R. 3844, the ``Energy and Minerals Reclamation Foundation 
            Establishment Act,'' introduced by Rep. Jody Hice of 
            Georgia, which provides a private sector funding mechanism 
            for Abandoned Mine Land (AML) cleanup, seeded by Federal 
            mineral lease fees, and

    -- H.R. 3843, the ``Locatable Minerals Claim Location and 
            Maintenance Fees Act,'' introduced by Mr. Lamborn, which 
            provides liability relief for Good Samaritan individuals or 
            entities who wish to come in and restore AML sites.

    These three bills work in a complementary fashion to address the 
range of complex technical, legal, education and funding related 
challenges facing mining development and reclamation.
    While all three reforms offer a proactive and positive set of 
solutions that are long past due, they are now even more critical, in 
light of the EPA-caused Animas River spill, which occurred last August 
some 325 miles from here at the Gold King Mine, not far from Silverton.
    After months of failing to provide clear answers, last week 
Interior Secretary Jewell finally appeared before the committee to 
testify about her Department's role in the spill, before, during, and 
after. The hearing underscored the deeply troubling response by this 
Administration to the spill, including a complete lack of transparency 
and objectivity and a too narrowly-focused investigation of the Federal 
agencies' blatant mishandling of the spill and its aftermath.
    As a result of this disaster, the Obama administration's 
credibility in managing abandoned mines is at an all-time low, which is 
why the legislation we are here today to discuss is so important.
    Today there may be as many as 400,000 abandoned mines across the 
western states, some of which pose serious health and safety hazards, 
and environmental risks as exemplified by the Gold King Mine spill.
    Although we still don't know why the EPA started urgently digging 
at the Gold King Mine, resulting in the Animas River spill, the event 
did help draw a spotlight to broader mining reclamation challenges.
    It also further made clear that the Federal Government cannot 
handle the job. The EPA doesn't even have the mining engineering 
expertise to do so. There are more mining experts on our own committee 
staff than even on EPA's team. This is completely unacceptable.
    Mr. Hardy's common-sense bill--H.R. 3734--encourages and provides 
support to America's mining schools that produce and help train the 
experts needed on the technical side to do this work in the future.
    I appreciate being here today with my colleagues, Subcommittee 
Chairman Lamborn, and Congressman Hardy, to discuss their bills; and I 
welcome Congressman Perlmutter and thank him for joining us today for 
this hearing. And I look forward to hearing from our witnesses.

                                 ______
                                 

    Mr. Lamborn. OK, thank you.
    We will now hear from our panel of witnesses. Each witness' 
written testimony will appear in full in the hearing record, so 
I ask that witnesses keep their oral statements to 5 minutes as 
outlined in our invitation letter to you and under Committee 
Rule 4(a).
    I also want to explain how our timing lights work. When you 
begin to speak, our clerk will start the timer and a green 
light will appear. After 4 minutes, a yellow light will appear, 
and at that time you should speed up. At 5 minutes, the red 
light will come on, and we ask that you finish your statement 
at that time.
    Before we hear from our witnesses, I also want to take a 
moment to urge the audience to submit written comments that 
will be included in the hearing record. We want to include as 
many comments as possible into the hearing record. There are 
comment forms at the room entrance, and you can also submit 
comments at our Web site, which is 
www.naturalresources.house.gov, under ``Contact Us.''
    We want to hear from you. If you have any questions about 
how to do this, please see one of our staff members.
    I will now introduce the witnesses.
    We have Mr. Leigh Freeman, Principal of Leigh Freeman 
Consultancy; Dr. Hugh Miller, Associate Professor of Mining 
Engineering at the Colorado School of Mines; and Ms. Nancy 
Nuttbrock, Associate and Texas Regional Leader of Brierley 
Associates.
    The Chair now recognizes Mr. Freeman for his statement.

     STATEMENT OF LEIGH FREEMAN, PRINCIPAL, LEIGH FREEMAN 
                 CONSULTANCY, DENVER, COLORADO

    Mr. Freeman. Chairman Lamborn, Mr. Perlmutter, and members 
of the committee, I would like to thank you for the invitation 
to address you on the subject of education, training, and 
workforce issues related to the U.S. mining industry. My name 
is Leigh Freeman, and I am the Principal at Leigh Freeman 
Consultancy. I have more than 40 years of experience in the 
private sector of the mining industry.
    Relevant to these proceedings, I served as a member of the 
Committee on Emerging Workforce Trends in the U.S. Energy and 
Mining Industries of the National Academies of Sciences, 
Engineering, and Medicine. The National Academy of Sciences was 
chartered by Congress in 1863 to advise the government on 
matters of science and technology.
    In 2013, the Academies' committee published a consensus 
report sponsored by the Department of Energy's National Energy 
Technology Laboratory. Specifically, the report analyzed the 
need for and availability of workers for the hardrock and coal 
mining, oil and gas, geothermal, nuclear, solar, and wind 
energy industries.
    Two factors impact the workforce across all mining and 
energy sectors. The first is demographic. Approximately one-
third of the U.S. workforce comprises Baby Boomers, who are 
poised to retire in great numbers by the end of this decade.
    Mr. Lamborn. Mr. Freeman, can I ask you to speak just a 
little bit louder for our recording equipment? Thank you.
    Mr. Freeman. Moreover, there are too few workers currently 
available and prepared to replace them.
    The second major crosscutting factor impacting the 
workforce is competencies. Specifically, the application of 
STEM principles in the workplace has increased the skill and 
competency requirements of the mining and energy workers.
    In its recommendations, the committee highlighted the 
importance of collaborative efforts among government, industry, 
and educational institutions to create multiple pathways in 
higher education. To ensure that there are enough faculty now 
and in the pipeline who qualify to work and teach at the 
cutting edge of technology, the committee also recommended that 
the government and industry consider public-private 
partnerships to provide joint support for mining and energy 
research programs at U.S. universities.
    The balance of my remarks will focus on the mining 
component of the report.
    The study committee identified a critical role for U.S. 
universities to develop graduate research programs in mining, 
with the goal of establishing global technological leadership. 
Although the need for sustaining highly qualified university 
faculty and graduates in mining engineering and mineral 
processing is evident, the capacity of U.S. universities to 
meet this need is severely challenged. Data illustrate the 
nature of these challenges.
    First, the number of accredited mining and mineral 
engineering programs has declined from 25 in 1982 to 14 in 
2007. The number of faculty has also declined, from 
approximately 120 in 1984 to a mere 70 in 2007.
    Over the last 10 years, U.S. universities have produced 
fewer than 200 mining engineers per year for employment across 
the full spectrum of metals, coal, industrial minerals, and 
building materials in support of Federal positions.
    Observations from my own professional experiences 
complement work done by the Academies' committee. In 2002, the 
industry and the academic community, acting through an 
industry-supported professional organization, the Society of 
Mining Metallurgy and Exploration (SME), recognized the pending 
crisis of talent in the U.S. mining industry. These efforts of 
SME supported the Energy Policy Act of 2005, as well as the 
Academies' report presented here.
    Consistent with the recommendations of the Academies, 
industry formed and funded the SME Education Sustainability 
Committee. This year, actionable items facilitated by this 
committee included two initiatives: one, the development of 4-
year graduate fellowships for qualified Ph.D. students, who are 
committed to pursuing careers in academia; and two, the 
awarding of career grants to assist new faculty in establishing 
research and publication records necessary to achieve tenure 
and promotion. This program is chaired by Dr. Hugh Miller, 
Colorado School of Mines, who will be speaking next.
    The Academies' report recommended industry-funded programs, 
such as ESC, as a short-term solution to a longer-term, stable 
solution realized by public-private funding. In summary, the 
Academies' report suggested expansion of research programs at 
universities, with matching funds from industry, could be 
directed toward advancing technology to drive innovation, and 
developing university faculty.
    I would like to thank the committee for its time and 
interest in this subject, and I look forward to questions.
    [The prepared statement of Mr. Freeman follows:]
     Prepared Statement of Leigh Freeman, Principal, Leigh Freeman 
Consultancy; and Member, Committee on Emerging Workforce Trends in the 
 Energy and Mining Industries, Board on Earth Sciences and Resources, 
 Division on Earth and Life Studies; and Board on Higher Education and 
    Workforce, Policy and Global Affairs, the National Academies of 
                  Sciences, Engineering, and Medicine
    Chairman Lamborn, Ranking Member Lowenthal, and members of the 
committee, I would like to thank you for the invitation to address you 
on the subject of education, training, and workforce issues related to 
the U.S. mining industry. My name is Leigh Freeman and I am the 
Principal at Leigh Freeman Consultancy. I have more than 40 years of 
experience in the private sector of the mining industry. I am a 
Geological Engineering graduate of the University of Montana at Montana 
Tech. I am deeply involved in minerals education and talent 
development. To this end, I currently serve on industry advisory boards 
for the geological engineering department of the University of Montana 
at Montana Tech, the Profession Land & Resource Management program for 
the Western State University here in Colorado, and the mining 
engineering advisory boards for the South Dakota School of Mines and 
the University of Arizona. For much of my professional career I have 
been active on committees for the Society of Mining, Metallurgy & 
Exploration (SME), particularly those committees involving minerals 
education and sustainability. Relevant to this proceeding, I served as 
a member of the Committee on Emerging Workforce Trends in the U.S. 
Energy and Mining Industries of the National Academies of Sciences, 
Engineering, and Medicine. The National Academy of Sciences was 
chartered by Congress in 1863 to advise the government on matters of 
science and technology and later expanded to include the National 
Academies of Engineering and Medicine.
    In 2013, the Academies' committee of which I was a member published 
a consensus report titled ``Emerging Workforce Trends in the U.S. 
Energy and Mining Industries: A Call to Action,'' which was sponsored 
by the Department of Energy's National Energy Technology Laboratory. 
The report examined the U.S. mining and energy workforce, and proposed 
approaches to address crucial, emerging needs to meet the Nation's 
requirements for skilled workers in most mining and energy sectors, 
spanning the workforce in private industry, at universities, and in the 
Federal Government. The report task originated as a congressional 
mandate in the Energy Policy Act of 2005.
    Specifically, the report analyzed the need for and availability of 
workers for the hardrock and coal mining, and oil and gas, geothermal, 
nuclear, solar, and wind energy industries. In each of these sectors, 
the committee examined the availability of skilled labor at both entry 
and senior levels; the historical and current trends in the size, 
growth, and demographics of the workforce; labor market 
characteristics; future demand for and supply of workers; job health 
and safety impacts of potential labor shortages; and, particularly 
relevant to today's discussion, the availability and need for education 
and training programs for workers in these sectors. The report 
recognized that creation of a skilled workforce begins early, that the 
Nation will depend on these workers to be capable in science, 
technology, engineering, and mathematics (STEM) disciplines, and that 
this STEM prerequisite creates a parallel requirement for an 
educational system that can effectively teach these subjects.
    I will focus my remarks primarily on those aspects of the Academies 
report that are relevant for mining and the topic of today's hearing. 
However, the broader scope of the report provides useful context to the 
mining information and I will share some of the overarching 
recommendations from the report. I will also add some personal 
observations from my own professional experience about what has taken 
place in academia and industry to address mining education at the 
university level over the last 15 years.
    Two major factors impact the workforce across all mining and energy 
sectors. The first is Demographic. Approximately one-third of the U.S. 
workforce comprises Baby Boomers--the generation born between 1946 and 
1964--and they are poised to retire in great numbers by the end of this 
decade. Moreover, there are too few younger workers currently available 
and prepared to replace them. The second major crosscutting factor 
impacting the workforce is Competencies. Specifically, the application 
of STEM principles in the workplace has increased the skill and 
competency requirements of the mining and energy workers. A strong 
foundation in STEM skills is therefore needed for many mining and 
energy jobs, and the need is growing at all levels as innovation and 
new technologies are increasingly applied in the workplace. The current 
pipeline of STEM-capable students and workers is inadequate to meet 
these workforce needs. The report outlined seven recommendations to 
address the shortfalls of the current education pipeline and I will 
review those briefly.
    In its recommendations to address challenges presented by 
Demographics and Competencies, the committee highlighted the importance 
of collaborative efforts among government, industry, and educational 
institutions to create and support new approaches to develop multiple 
pathways in higher education that can lead to a range of mining and 
energy jobs. To ensure that there are enough faculty now and in the 
pipeline who qualify to work and teach at the cutting edge of 
technology, the committee also recommended that the government and 
industry consider public-private partnerships to provide joint support 
for mining and energy research programs at U.S. universities, with the 
goal of attracting and better preparing students and faculty, promoting 
innovation, and helping to insure the relevance of university programs. 
Recognizing that industry's ability to financially support these 
critical efforts is subject to market price cyclicity in the commodity 
sectors underscored the importance of government-industry partnerships 
in providing consistent financial support for mining and energy 
education.
    The availability of current, accurate mining and energy information 
was also highlighted by the committee as being important. The report 
stressed the need for industry and educational institutions to provide 
timely and accurate information about career opportunities in mining 
and energy fields, and educational and career navigation resources 
targeted toward students, educators, and policymakers. In a related 
way, the report called upon the Federal Government to work with 
industry to develop more agile and responsive workforce data that 
reflect the fast-paced change of jobs and occupations and allow 
students, educators, and employers to understand and take advantage of 
changing job opportunities.
    Finally, the report found a critical, pending shortage of Federal 
employees involved in mineral and energy fields due to high, ongoing 
retirement rates in the Federal Government sector. These Federal 
employees play an important role in data gathering and advising, as 
well as in oversight of mining and energy activities for an 
increasingly involved and concerned citizenry. The committee 
recommended several approaches for the agencies to attract and retain 
qualified workers to meet current and future needs in mineral and 
energy policy, permitting, extraction methods, production oversight, 
reclamation, and research and data provision. The committee noted the 
challenges faced by the Federal sector in hiring qualified employees 
both because of the high retirement rates and competition from the 
higher compensation offered by industry.
    The balance of my remarks will focus on the mining component of the 
report. Mineral and energy resources are essential for the Nation's 
fundamental functions, its economy, and its security and are essential 
for the existence and operation of products that are used by people 
every day. The committee defined mining to include metals such as 
copper and iron--basic materials for all industrial nations--as well as 
rare earths and other metals necessary for high tech, national defense, 
and energy applications; industrial minerals such as potash used for 
fertilizer and sodium carbonate (trona) for glass production; coal for 
energy; and building materials including sand, gravel and crushed rock 
for infrastructure including houses, highways, and airport 
construction. In addition to the convenience and security offered by 
these kinds of products, minerals also support the economic standard of 
living in the United States. The USGS estimated that the overall value 
added to the U.S. gross domestic product (GDP) in 2014 by major 
industries that consumed processed nonfuel mineral materials was $2.5 
trillion. This contribution represented about 14.4 percent of the total 
U.S. GDP of $17.4 trillion in 2014.
    Although the committee's recommendations were applied across the 
broad array of mining and energy sectors, the study committee noted a 
particularly acute situation regarding age demographics in the 
workforce and an accompanying shortage of STEM-capable, younger people 
to fill upcoming and current openings in mining and mining engineering. 
The USGS has monitored import reliance for decades and these data have 
shown an increase in the number of minerals for which the United States 
depends primarily or completely on foreign suppliers of the raw 
material. Whether or not the minerals used every day in the United 
States are mined domestically or abroad, the capacity to conduct 
research and foster technological innovation are important. Without 
them, the committee suggested, the Nation may not be able to anticipate 
and react to potential restrictions in the mineral markets. A talent 
crisis for professionals and workers is pending, and already exists for 
faculty in mining and mining engineering, driven by an aging workforce 
and international competition for talent. Both will precipitate 
fundamental changes in the cost of talent at all skill and education 
levels, but particularly for those positions requiring the most highly 
trained or educated practitioners.
    Mining disciplines in higher education were broadly defined in the 
committee's report to include fields such as mining exploration, 
mineral extraction and processing, metallurgy, extractive metallurgy, 
economic geology, exploration geophysics, and geochemistry, among 
others. The committee underscored the advantages of disciplinary 
diversity whereby students could be trained and educated across 
disciplinary lines to increase innovation and educate people with a 
breadth of skills to address career challenges in a cyclical commodity 
business.
    Although the need for sustaining highly qualified university 
faculty and graduates in mining and mining engineering is evident, the 
capacity of U.S. universities to meet this need is severely challenged. 
Some of the data available from the committee's report--and updated, 
where possible, for this testimony--illustrate the nature of these 
challenges. First, the number of accredited mining and mineral 
engineering programs has declined from 25 in 1982 to 14 in 2007. The 
number of faculty has also declined, from approximately 120 in 1984 to 
70 in 2007. This translates into an average of 5 faculty at each of the 
14 programs, each awarding 9 B.S. degrees per year per school. Over the 
last 10 years, U.S. universities have produced fewer than 200 mining 
engineers per year for employment across the full range of metals, 
coal, industrial minerals, and building materials sectors, and in 
academia and Federal and state agencies. Relative to other engineering 
disciplines, these mining and mineral engineering programs are small 
and may be more vulnerable to financial pressures experienced by 
universities. Furthermore, the major proportion of the current 
technological leadership in U.S. institutions of higher education is 
approaching retirement without an obvious source of qualified 
replacements. The study committee identified a critical role for U.S. 
universities to develop graduate research programs in mining with a 
goal of establishing global technological leadership.
    One approach to reasserting U.S. leadership in mining fields 
suggested by the committee was the establishment of several 
interdisciplinary graduate Centers of Excellence in Earth Resources 
Engineering at leading U.S. research universities. These kinds of 
centers could help focus attention on the science and engineering 
challenges presented by the mining industries and develop the 
professional expertise that will be needed. These Centers could 
efficiently coordinate the work of faculty and research facilities at 
multiple universities and would complement the more classical programs 
of the U.S. schools of mines. In addition, Centers of Excellence could 
create an education system that responds to changes in the economy more 
quickly and produces a more flexible, STEM-competent workforce. The 
immediate goal in addressing the shortfalls of the current education 
pipeline would be to re-establish the pipeline of talent and 
particularly of qualified faculty in the 14 remaining mining schools in 
the disciplines deemed to be `professions at risk': mining, extractive 
metallurgy/mineral processing, and economic geology. The outcome from 
such an approach was envisioned by the committee to develop students 
equipped with multiple skills, who are prepared to adjust quickly to 
industry requirements and job availability.
    In my own professional experience, I have participated in a 
consistent industry-academic initiative since 2002 to try to develop 
more robust mining education programs and I'd like to briefly discuss a 
few of these here as complements to the work done by the Academies 
committee. In 2002, industry and the academic community recognized the 
pending talent crisis in the U.S. mining sector. This realization led 
to the formation of an Education Sustainability Task Force, where I 
served as co-chairman under the auspices of the SME. At subsequent 
workshops and symposia, leaders from industry and the academic 
community, with participation from Federal agencies, established plans 
to stabilize and advance minerals education at U.S. universities with a 
special focus on funding to re-establish the `the pipeline for 
qualified faculty.' These efforts continued in support of the 
aforementioned congressional mandate in the Energy Policy Act of 2005 
as well as the Academies report presented here. Consistent with 
recommendations in the Academies report to ``provide financial and 
leadership support to sustain critical teaching capacity until medium- 
and long-term solutions can be developed and implemented,'' the effort 
led to the formation and subsequent funding by industry of the SME 
Education Sustainability Committee (ESC).
    Since its inception in fall 2013, the ESC has sought to develop 
actionable items to address the long-term challenges to the 
sustainability of U.S. degree granting programs in Mining Engineering 
and Mineral Processing/Extractive Metallurgy. Given its mission and the 
implications of faculty shortages on the future viability of these 
academic programs, the ESC has focused its efforts on ways of 
rebuilding the faculty pipeline in order to address the growing absence 
of viable tenure-track candidates to replace the aging workforce of 
existing faculty at U.S. universities. The actionable items facilitated 
by the ESC culminated in two complimentary initiatives: (1) the 
development of 4-year graduate fellowships for qualified Ph.D. students 
who are committed to pursuing careers in academia; and (2) the awarding 
of Career Grants to assist new faculty in establishing research and 
publication records necessary to achieve tenure and promotion. Thus 
far, 3 Ph.D. Fellowships and 2 Career Development Grants have been 
distributed and the solicitation for 2016 has been recently released. 
When full participation of the Grant Program is reached in 2018, the 
total financial commitment will be $1.477 million annually. This 
program, chaired by Dr. Hugh Miller of the Colorado School of Mines, 
will be discussed by others at this proceeding. The Academies report 
recommended industry-funded programs, such as ESC, as a short-term 
solution to a longer-term, stable solution realized by private-public 
funding.
    In summary, with a direct alignment to industry education and skill 
requirements, the Academies report suggested that the success of mining 
education programs can be measured by attainment of employment and 
advancement opportunities in the mining industries. Expansion of 
research programs at universities, with matching funding from industry, 
could be directed toward specific outcomes such as: (1) advancing 
technology or business processes to drive innovation and enrich 
graduate and undergraduate education; and (2) developing university 
faculty who work on the cutting edge of research to enhance the quality 
of higher education. For mining and mining engineering, where the 
supply of STEM-capable younger workers is inadequate to replace or 
sustain requirements for workers in the private sector, in academia, 
and in the Federal Government, establishing Centers of Excellence in 
Earth Resources Engineering or similar technology- and innovation-
focused research and education programs could help re-establish a U.S. 
leadership role in mining.
    I would like to thank the committee for its time and interest in 
this subject and I look forward to questions.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    The Chair now recognizes Dr. Miller to testify.

    STATEMENT OF HUGH MILLER, ASSOCIATE PROFESSOR OF MINING 
    ENGINEERING, COLORADO SCHOOL OF MINES, GOLDEN, COLORADO

    Dr. Miller. Great. Thank you. Chairman Lamborn, Mr. 
Perlmutter, and members of the committee. I would like to 
extend my sincere thanks for the opportunity to address the 
challenges associated with the U.S. academic programs in mining 
engineering. My name is Hugh Miller, and I am an Associate 
Professor in the Mining Engineering Department at the Colorado 
School of Mines. I have nearly 30 years of combined 
professional experience in both industry and academia. I also 
serve as the Chair of the Education Sustainability Committee 
for the Society for Mining, Metallurgy, and Exploration.
    As Mr. Freeman has addressed, one of the most ominous 
threats facing the industry is the steady decline in the number 
of accredited U.S. mining engineering programs over the last 30 
years. Since these programs are largely responsible for 
educating the next generation of mining professionals who will 
assume technical and leadership positions in all sectors of the 
industry and government, the loss of these mining programs will 
have and have had a profound and long-lasting impact. The 
crisis in talent has prompted action within the industry, 
including groups like SME and the National Academies, which 
have sought to quantify the reasons for the loss of these 
academic programs, to find ways for the remaining programs to 
remain stable, and to effectively increase the number of 
graduates being produced.
    Paramount among these challenges identified are shortages 
in qualified candidates to replace retiring faculty and the 
limited number of sources available to support academic 
research. While seemingly independent, the issues associated 
with faculty scarcity, research funding, the production of 
graduates, and program instability are all inter-related.
    Of significant concern is the absence of a viable means to 
address the current number of faculty vacancies, as well as the 
looming labor deficiencies associated with retirements over the 
next decade, when more than half of the existing tenure and 
tenure track faculty will be eligible for retirement within 5 
years.
    To put this in context, the average nationwide graduation 
rate for mining Ph.D.s has historically been less than 15 
annually, where the vast majority of these candidates who are 
graduates are international students. Even if 25 percent of 
these individuals had the interest of pursuing a career in 
academia and possessed the skill sets necessary to be 
successful as a tenure track faculty, we would fall far short 
in the number of faculty needed to sustain the current 
programs.
    Furthermore, the overall success rate in developing faculty 
from graduate school through tenure is extremely poor, with 
some estimates as low as 25 percent. While this low success 
rate is consistent with the belief of the national average 
associated with other engineering disciplines, the limited size 
of the candidate pool in mining compounds the current 
difficulties in attracting a critical mass of faculty that are 
needed for these programs.
    SME is focusing its efforts on rebuilding what is often 
referred to as the faculty pipeline, the mechanism through 
which individuals acquire the experience, skill sets, and 
qualifications necessary for employment at a university and 
then to subsequently achieve tenure. These efforts include the 
development of graduate fellowships for qualified Ph.D. 
students who are committed to pursuing careers in academia, and 
career development grants to assist new faculty in achieving 
tenure and promotion.
    The importance of research funding in higher education is 
not well understood outside of academia. While research is 
primarily used as a criteria for assessing faculty performance 
and is intimately tied to promotion and tenure, it is also the 
driver that enables programs to recruit and retain graduate 
students, acquire and maintain laboratory equipment and 
facilities for both education and research, and to publish.
    In addition, with the significant reductions in state 
funding over the last 10 years, most public universities have 
become increasingly dependent upon research overhead to offset 
the costs associated with operations and support staff. With 
the exception of CDC NIOSH, which is solely focused on 
occupational safety and health, there are very limited 
opportunities available for Federal funding for mining research 
at levels comparable to other science and engineering 
disciplines.
    In summary, mining education is at risk. The continued loss 
of programs and the talent they generate will have a profound 
impact on the Nation's economy and security. Without 
significant near-term investment, academic programs in mineral 
engineering will not have the capacity to produce the graduates 
necessary to sustain industry demand.
    There are opportunities, however, where the Federal 
Government can make a substantive difference by investing in 
meaningful research initiatives that encourage industry, 
university, and government collaboration. Efforts to amend 
SMCRA in order to provide support to mining schools is a 
monumental step in the right direction and will have 
significant long-term benefits.
    I would like to thank the committee for the time and 
interest in this very important topic, and it is a pleasure to 
answer any questions you might have. Thank you.
    [The prepared statement of Dr. Miller follows:]
   Prepared Statement of Hugh B. Miller, Associate Professor, Mining 
            Engineering Department, Colorado School of Mines
    Chairman Lamborn, Ranking Member Lowenthal, and members of the 
committee, I would like to extend my sincere thanks for the opportunity 
to address you regarding the long-term challenges that threaten the 
sustainability of U.S. Mining and Extractive Metallurgy/ Mineral 
Processing degree granting programs. My name is Hugh Miller and I am an 
Associate Professor in the Mining Engineering Department at the 
Colorado School of Mines (CSM). I have nearly 30 years of combined 
professional experience in both industry and academia. I also have the 
pleasure of serving as the Chair of the Education Sustainability 
Committee (ESC) for the Society for Mining, Metallurgy, and Exploration 
(SME). The ESC is a committee comprised of academicians and experts in 
higher education that was formed with the expressed mission to develop 
specific actionable recommendations to address the daunting challenges 
facing these academic programs.
    I would also like to welcome you to the CSM Edgar Experimental 
Mine: a unique laboratory focal to the development of undergraduate and 
graduate students and cutting edge research in a wide variety of 
mineral and earth related disciplines including Mining, Metallurgical, 
and Geological Engineering, as well as Economic Geology, Underground 
Construction and Tunneling, Explosives Engineering, Environmental 
Engineering/Science, and Petroleum Engineering.
    This morning you will hear testimony from several experts on the 
importance of domestic mineral production as it pertains to our 
economy, standard of living, and national security, and the dire 
implications of disruptions to the production of these raw materials as 
a consequence of future shortages in skilled labor and professional 
talent. Contrary to public perception, and what's often portrayed on 
television and in the media, mining and mineral exploration in the 
developed World is pushing the limits in terms of technology and 
innovation that extends from equipment and operating systems to 
processes and environmental controls. Furthermore, due to the economic 
pressures associated with declining ore value, increasing operating and 
capital costs, and growing regulatory oversight, companies are heavily 
dependent upon continuous improvement and the use of technology to 
remain viable. This is particularly true in the mining of unit value 
commodities, where U.S. operations are often at a competitive 
disadvantage relative to foreign producers. As such, the future 
viability of the U.S. Mining Industry and the domestic production of 
raw minerals is directly dependent upon the availability of a skilled 
workforce which must possess technical capabilities and competencies 
that far exceed those needed a mere decade ago. This supposition is 
supported by a workforce study produced by the National Academies in 
2013 titled, ``Emerging Workforce Trends in the U.S. Energy and Mining 
Industries: A Call to Action.'' Mr. Leigh Freeman served on the 
Committee responsible for this critical study and will provide 
testimony later this morning.
    This study, and several others, identified significant threats to 
the stability of this skilled workforce. The aging demographics of the 
Mining Industry has long been a major source of concern that impacts 
both hourly and salaried labor, where there are simply too few workers 
available to adequately replace those that are retiring. In addition, 
the increasing technical sophistication of job assignments and the 
requisite competencies these younger workers must have represents 
another challenge. The current labor pool does not have the skills and 
education necessary to adequately meet these workforce needs now, or in 
the future.
    With regards to professional talent, one of the most ominous 
threats facing the industry is the steady decline in the number of 
accredited U.S. Mining Engineering programs over the last 30 years. In 
1982, there were 25 degree granting programs in Mining Engineering. 
Today, there are 14 accredited departments, of which only half can be 
considered healthy. Of these, only 12 of these remaining programs offer 
Ph.D. graduate degrees. Since these programs are largely responsible 
for educating the next generation of professionals who will assume 
technical and leadership positions in all sectors of the industry, the 
loss of these engineering programs will have immediate and long-lasting 
impacts. Beginning with the rise in commodity prices in the early 
2000s, industry began to experience significant labor shortages in 
technical and supervisory positions. With regards to entry level 
engineers, there was insufficient capacity within the remaining mining 
programs to provide the new talent that these companies desperately 
needed. Driven by their constituencies, this ``talent crisis'' prompted 
action within professional organizations, such as the Society for 
Mining, Metallurgy, and Exploration (SME), to quantify the causation 
factors responsible for the deterioration and loss of these academic 
programs and find ways for the remaining programs to become stable, and 
effectively increase the number of graduates being produced. A great 
deal of work was conducted by many throughout the decade to collect and 
analyze the data and to formulate strategic plans intended to stabilize 
and advance U.S. minerals education. These activities facilitated a 
unique collaboration between industry, academia, and government that 
resulted in numerous committees and task forces, workshops, symposiums, 
and related research activities. The consequence of these efforts led 
to formalized studies produced by the National Academies and SME, 
papers written by distinguished members of the academic mining 
community, and proposals regarding the promulgation of potential 
legislation.
    Building upon the contributions derived from these numerous 
sources, SME leadership created the ESC in fall 2013 with the expressed 
mandate to formulate meaningful, actionable recommendations to mitigate 
the prevailing challenges that threaten the survival and long-term 
viability of U.S. academic programs in Mining Engineering and Mineral 
Processing/Extractive Metallurgy. The primary intent of the Committee 
wasn't to rectify all the threats and challenges facing these programs, 
but to focus on addressing those critical factors where interventions 
could have a direct and substitutive impact. The first step was to 
quantify the underlying factors jeopardizing the short-term and long-
term sustainability of the current programs. This was performed by 
analyzing data and information previously collected through SME and 
other sources, where potential deficiencies were assessed. Additional 
information was then collected as deemed necessary. The Committee 
attempted to develop causation factors that correlated with the trends 
seen in the data. While the threats to specific academic programs vary 
by university, there were commonalities inherent to each of these 
degree programs. It's important to note that these challenges are 
complex and interrelated, where many of the underlying threats 
identified are symptomatic of larger changes that have occurred in 
higher education and are difficult for an individual department or an 
external entity (e.g., professional organization or a company) to 
remedy or facilitate meaningful change. These issues are often driven 
by state mandated university policies and institutional economics, 
where student enrollment, the physical footprint, and cost per student 
associated with mineral engineering programs greatly contribute to 
their vulnerability. That said, the Committee was able to identify 
several common, underlying factors that significantly contributed to 
the current dilemma facing these mining programs. Paramount among these 
challenges includes faculty scarcity and insufficient sources of 
support for faculty research. While seemingly independent, these two 
issues are intimately related.
                            faculty scarcity
    As discussed previously, the labor shortages endemic to the Mining 
Industry also extend to academia. Of immediate concern is the absence 
of a viable means to address the current number of faculty vacancies as 
well as the looming future labor deficiencies associated with 
retirements over the next decade. Two fundamental studies conducted by 
McCarter (2007) and Poulton (2012) analyzed the demographics of U.S. 
mining engineering faculty and provided quantitative evidence of the 
pending crisis.\1\<SUP>,</SUP>  \2\ The results of these studies showed 
that of the 74 tenured track faculty reported in the 2009/2010 academic 
year, 100 percent of the senior faculty in the United States (39 mining 
professors) will be eligible for retirement by 2020. Compounding this 
situation is that few qualified professionals are entering academia as 
new faculty, where only 13.5 percent were 40 years of age or younger. 
These factors have resulted in 14 open faculty positions being reported 
by 12 of the 14 U.S. Mining Department Heads in the 2009/2010 academic 
year (Poulton, 2012). This study went on to estimate that an additional 
18 faculty positions would be needed in 2015 and 21 more openings would 
occur by 2020. These ominous predictions were largely substantiated at 
the 2013 SME Annual Meeting in Denver, where a survey of the 14 mining 
departments indicated that there were 18 faculty positions either 
currently open or planned in the immediate future, including 5 
department head positions.\3\ To put this in context, the average 
nationwide graduation rate for Mining Ph.D.s has historically been less 
than 15 annually, where a vast majority of these graduates are 
international students. In the event that even 25 percent of these 
individuals had an interest in pursuing a career in academia and 
possessed the skill sets necessary to be successful as tenure-track 
faculty, it would fall far short of the number of faculty needed to 
sustain the current programs.
---------------------------------------------------------------------------
    \1\ McCarter, M. (2007), ``Mining faculty in the United States: 
current status and sustainability,'' Mining Engineering, SME 
Publication, September, pp. 28-33.
    \2\ Poulton, M. (2012), ``Analysis of the Mining Engineering 
Faculty Pipeline,'' 2012 SME Annual Meeting, Conference Proceedings, 
February, pp. 1-9.
    \3\ Department Survey, Mineral School Department Heads Meeting, 
2013 SME Annual Meeting, Denver, CO, February 24, 2013.
---------------------------------------------------------------------------
    The situation facing the six remaining U.S. Extractive Metallurgy/
Mineral Processing Departments appears to be even dire as a consequence 
of the limited number of key faculty keeping these programs stable. An 
examination of these programs reveals a population of approximately 22 
tenured or tenure-track faculty, where 10 of these professors will be 
eligible for retirement within the next 8 years.\4\
---------------------------------------------------------------------------
    \4\ ``Federal Support for U.S. Mining Schools,'' Society for 
Mining, Metallurgy & Exploration, Position Paper, 2014.
---------------------------------------------------------------------------
    The problem associated with faculty scarcity is cumulative and 
extends from recruiting appropriate candidates with a desire for 
pursuing a career in academia and the ability to successfully complete 
a Ph.D. degree, through the tenuous process of achieving tenure at a 
given academic program. The overall success rate of developing faculty 
from graduate school to tenure is extremely poor, with estimates as low 
as 20 percent. While this low success rate is probably consistent with 
the national average of other engineering disciplines, the very limited 
candidate pool of potential faculty only compounds the current 
difficulties associated with mineral engineering departments 
maintaining a critical mass of faculty because of the low Ph.D. 
graduation rates and the lack of qualified candidates.
    To address this challenge in a meaningful way, the ESC recommended 
to SME leadership, and its industry constituencies, that the 
organization focus its efforts on several complimentary actions related 
to rebuilding what is often referred to as the faculty pipeline. The 
pipeline represents the mechanism through which individuals have 
traditionally acquired the experience, skill sets, and qualifications 
necessary for employment as tenured-track faculty at an accredited 
university and then to go on to successfully earn tenure. As part of 
these efforts, the ESC recommended the following actions: (1) the 
development of a 4-year graduate fellowship for qualified Ph.D. 
students who are committed to pursuing careers in academia; and (2) the 
awarding of Career Grants intended to assist new faculty in 
establishing research and publication records necessary to achieve 
tenure and promotion. Both of these initiatives were strongly endorsed 
by the SME and SME Foundation Boards. The structure, guidelines, and 
budgets of these academic grants were formalized in 2014 and 
fundraising efforts began shortly thereafter. The success of these 
activities, and the necessary industry buy-in to financially support 
them, led to the formal solicitation of applications in March 2015, and 
the awarding of 3 Ph.D. Fellowships and 2 Career Development Grants in 
August 2015. The 2016 solicitation for these grant programs was 
released by SME in November. When full participation of the combined 
grant programs is reached in 2018, the total annual financial 
commitment will be $1.48 million and will be entirely supported from 
donations derived by SME members and industry partners.
    Beyond the Academic Grant programs, the ESC also outlined a full 
agenda of activities and recommendations intended to address challenges 
related to the availability of research funding, the recruiting of 
qualified industry professionals into both M.S. and Ph.D. degree 
programs, activities designed to mentor new faculty on topics critical 
to tenure (e.g., teaching, research, publication, and service), and the 
development of a campaign to educate industry on the realities and 
threats facing higher education. These activities are active and on-
going.
                            research support
    The importance of research funding to the health and welfare of an 
academic program is often not well understood outside of academia, even 
among a department's industry advisors and constituencies. While 
research is usually a primary criterion used to assess faculty 
performance and is intimately tied to promotion and tenure, it is also 
the driver that enables programs to recruit and retain graduate 
students, acquire and maintain laboratory equipment and facilities used 
for both education and research, and generate peer-reviewed 
publications. In addition, with the significant declines in state 
funding, most public universities have become increasingly dependent on 
research overheads to offset the costs associated with department 
operations and support staff. While others have documented the 
increasing reliance of universities on tuition and in-direct financial 
support derived from research, I wanted to focus on the importance of 
research as it pertains to the challenges facing faculty scarcity, the 
redevelopment of the talent pipeline, and the overall health of 
academic departments. With the exception of the large, multi-national 
``majors'', most mining companies want to employ our graduates but see 
little value in supporting funded research despite their dependence on 
technology. Research, student enrollment, and the number and 
productivity of faculty, however, are all interdependent. Put 
succinctly, without research academic programs in minerals engineering 
will simply cease to exit. Departments are generally evaluated by 
university administrators relative to their performance as measured by 
criteria such as research volume, scholarly work (publications), 
student credit hours, and the number of Ph.D. students that are 
produced. University resources (financial, space, and personnel) are 
subsequently distributed to individual departments on the basis of 
these criteria. By their very nature, mineral engineering departments 
are generally small, high cost programs with a significant footprint as 
a consequence of laboratories. These characteristics make them highly 
vulnerable. As such, research provides the catalyst for promoting 
stability and growth by creating the means to attract students, 
construct and operate labs, and justify the hiring and retention of 
faculty. The pipeline that recruits and funds graduate students, 
provides opportunities to hire new faculty and enables them to achieve 
tenure, and hence, teach and mentor undergraduate students, is all 
facilitated by research.
    With the closure of the U.S. Bureau of Mines in 1996, it's become 
increasingly difficult for faculty to find Federal sources to support 
mining related research. With the exception of CDC NIOSH, which is 
solely focused on occupational safety and health, there are very 
limited opportunities available to fund mining research at levels 
comparable to other science and engineering disciplines. Furthermore, 
access to government and industry sponsored research is often tied to 
faculty expertise and program facilities, which make it very difficult 
for new faculty or departments that are under financial stress or below 
critical mass in terms of faculty. As such, the development of new 
Federal sources of research funding is critical to the well-being of 
current and future academic programs in Mining and Extractive 
Metallurgy/Mineral Processing.
    In summary, mineral education is at risk. The continued loss of 
these programs, and the talent they generate, will have a profound 
impact on the Nation's economy and security. Without immediate 
intervention and significant near-term investment, academic programs in 
mineral engineering will not have the capacity to produce the graduates 
necessary to sustain industry demand. Issues related to faculty 
shortages and limited availability of Federal research support are 
interrelated and among the most significant threats facing these 
programs. There are opportunities, however, where the Federal 
Government can make a substantive difference by investing in meaningful 
research initiatives that encourage industry/university collaborations 
and provide needed support for graduate students and promote faculty 
development and tenure. Efforts to amend the Surface Mining Control and 
Reclamation Act of 1977 (H.R. 3734) in order to provide support to 
mining schools is a monumental step in the right direction and will 
undoubtedly have significant, long-term impacts that will benefit the 
Nation. I would like to thank the committee for its time and interest 
in this important topic and it would be a pleasure to answer any 
questions you might have. Thank you.
    Mr. Lamborn. OK. Thank you.
    The Chair now recognizes Ms. Nuttbrock to testify.

  STATEMENT OF NANCY NUTTBROCK, PE, ASSOCIATE/TEXAS REGIONAL 
          LEADER, BRIERLEY ASSOCIATES, HOUSTON, TEXAS

    Ms. Nuttbrock. Chairman Lamborn and members of the 
committee, thank you for the opportunity to offer my testimony 
in support of your bill today.
    Please indulge me for just a minute while I tell you a 
little bit about my background. It will tie into my remarks. I 
graduated with a Bachelor's degree in Geological Engineering 
from South Dakota School of Mines back in 1996. While in 
college, I worked as an intern for two summers for Phelps Dodge 
in Morenci, Arizona, which at that time was one of the world's 
largest copper mines. After graduating, I worked for Pacificorp 
at their surface coal mine in Centralia, Washington. Then, I 
worked for Halliburton in Wyoming, and then relocated to Denver 
to pursue my Master's degree in Mining Engineering here at the 
Colorado School of Mines.
    While pursuing my degree, I focused on tunnel design and 
was introduced to Brierley Associates, an engineering firm 
offering all varieties of tunnel and shaft design, and heavy 
civil underground construction. I worked with Brierley on 
tunnel projects across the United States and internationally 
for the next 5 years. Then, I left my friends at Brierley and 
headed back to Wyoming. For the next 6 years, I served as the 
Deputy Director for the Wyoming School Facilities Commission, 
which proved to be a unique and beneficial tangent to my 
training in the earth sciences. Following this, for the next 3 
years I served as the Administrator, and then the Deputy 
Director, for Wyoming's Department of Environmental Quality.
    This position really took me back to my mining engineering 
roots. I ran a program there that regulated all the mining 
activity across the state. That included coal, trona, 
bentonite, uranium, sand and gravel, just to name a few. Then, 
about a year ago, I left Wyoming to rejoin my friends again at 
Brierley and to open our office in Houston, Texas.
    This bill is important for a lot of reasons, but from my 
perspective, it is particularly important to states like 
Wyoming with a robust mining economy. The regulatory program 
for Wyoming's DEQ is charged with not only permitting the 
mining operation and ensuring that reclamation is successful, 
but everything in between. Mining operators are required to 
submit detailed mine plans to incorporate into their permits, 
which involve all aspects of a mine's operation. With that, now 
also consider that Wyoming's program is charged with regulating 
all forms of mining, each dramatically different.
    Consider a traditional open pit mine, where you would see 
the largest coal mines in the Powder River Basin, to the rare 
elements mines, to large and small sand and gravel operations. 
Now also consider underground mining, much like we are in 
today, the largest trona mines in the country, and underground 
coal gasification. Also consider in situ uranium mining. These 
are all dramatically different mining techniques, and some of 
Wyoming's operations are the biggest in the world.
    Wyoming's program employed about 45 Earth Science 
professionals--geologists, range scientists, vegetation and 
reclamation experts, soil scientists, hydrologists, and 
engineers. These professionals are extremely capable and well-
respected in their fields of expertise.
    In order to regulate the wide spectrum of mine types that I 
just described, each of those professionals must learn the 
technicalities of each operation assigned to them. For example, 
a soil scientist might be required to regulate an in situ 
uranium mine. To do that, each person learns from their peers, 
to a large degree they are self-taught, and they learn from the 
mine operators they are entrusted to regulate.
    Wyoming is very fortunate, and perhaps even a little rare, 
in that the mining industries and the regulatory entities 
honestly collaborate toward a balance between environmentally 
sound techniques and profitable operations.
    So, while it is true that Federal funding is needed to 
conduct research at mining schools, and new professors need to 
conduct research for tenure, the cycle still lacks a source of 
students. Simply stated, when contemplating the age-old 
question, ``What do you want to be when you grow up? '', very 
few high school students will answer ``a mining engineer.'' If 
there was not a mining engineer in your family or if your dad 
was not one, the odds are you are not going to know what a 
mining engineer is.
    Recently, the president of Brierley Associates asked me, 
``Nancy, when you were 8 years old, what did you want to be? '' 
He chuckled at my response. I told him I wanted to be a truck 
driver, because that is the way I thought I could see the world 
and travel.
    I will leave you with this friendly recommendation from a 
person who had no idea what a mining engineer was. Include a 
mechanism to engage high school students, and especially those 
students who would not otherwise be exposed to mining 
engineering as an exciting career choice.
    Thank you for your efforts to bolster professionals in our 
industry and for listening to me today.
    [The prepared statement of Ms. Nuttbrock follows:]
   Prepared Statement of Nancy Nuttbrock, Associate & Texas Regional 
                      Leader, Brierley Associates
                              introduction
    Thank you for the opportunity to offer my testimony in support of 
H.R. 3734. My name is Nancy Nuttbrock.
                               background
    I graduated with a B.S. in Geological Engineering from South Dakota 
School of Mines and Technology in 1996. While in college, I worked as 
an intern for two summers for Phelps Dodge in Morenci, AZ, at that 
time, one of the world's largest copper mines. After graduating, I 
worked for Pacificorp at their surface coal mine in Centralia, WA. 
Then, I worked for Halliburton in Wyoming. I relocated to Denver to 
pursue my M.S. in Mining Engineering here at the Colorado School of 
Mines. While pursing my Masters in Mining Engineering-Earth Systems 
Technologies, (aka: tunnel design), I was introduced to Brierley 
Associates, an engineering firm focusing on all varieties of tunnel and 
shaft design, and heavy civil underground construction. I worked with 
Brierley on tunnel projects across the United States and 
internationally for 5 years. Then, I left my friends at Brierley and 
headed back to Wyoming. For the next 6 years, I served as the Deputy 
Director for the Wyoming School Facilities Commission, which proved to 
be a unique and beneficial tangent to my training in the earth 
sciences. Following this, for the next 3 years, I served as the 
Administrator, and then the Deputy Director, for Wyoming's Department 
of Environmental Quality. This position took me back to my geology and 
mining engineering roots--I administered Wyoming's program that 
regulated all mining activities across the state, including coal, 
trona, bentonite, uranium, and sand and gravel, to name a few. The 
program employed approximately 45 earth science professionals: 
geologists, range and reclamation scientists, hydrologists, and 
engineers. Then, about a year ago, I left Wyoming to rejoin my friends 
at Brierley Associates, and open our office in Houston, TX.
                          from my perspective
    This bill is important for many reasons, but based on my 
background, it is particularly important to states like Wyoming with a 
robust mining economy. The regulatory program for Wyoming DEQ is 
charged with not only permitting the mining operation, and ensuring 
that reclamation is successful, but also everything in between. Mining 
operators are required to submit detailed mine plans to incorporate 
into their permits, which involve all aspects of a mine's operation. 
With that, now also consider that the Wyoming's program is charged with 
regulating all forms of mining that differ dramatically:

    <bullet> traditional surface mines (ranging from the world's 
            largest coal mines in the Powder River Basin to rare 
            elements to small sand and gravel operations);

    <bullet> underground mines (including underground coal mines, 
            underground coal gasification, and large trona mines); and

    <bullet> in situ uranium mining.

    Some of these mines are the largest of their kind in the world.

    The geologists, the reclamation and vegetation experts, the 
hydrologists and the engineers employed to run Wyoming's program are 
extremely capable professionals in their respective fields of 
expertise. In order to regulate a wide spectrum of mine types, each 
professional must learn the technicalities of each operation assigned 
to them. To do so, each person learns from their peers, are self-
taught, and/or learns from the mine operators and mine personnel they 
are entrusted to regulate. Wyoming is fortunate, and perhaps even rare, 
in that the mining industries and regulatory entities collaborate 
honestly toward a balance between environmentally sound techniques and 
profitable operations.
                             recommendation
    While it is true that Federal funding is needed to conduct research 
at mining schools, and new professors need to conduct research for the 
tenure process so they can educate the next generation of mining and 
mineral experts, this cycle still lacks the source of students.
    Simply stated, very few high school students contemplating the age-
old question ``What do you want to be when you grow up? '' will answer 
`a Mining Engineer'. The President of Brierley Associates recently 
asked me: ``When you were 8 years old, what did you want to be? '' He 
chuckled at my response: I wanted to be a truck driver, because I 
thought that was the only way I could travel and see the country.
    Please consider this: include a mechanism to engage high school 
students and especially those students who would not otherwise be 
exposed to mining engineering as an exciting career choice.
                               conclusion
    Thank you for your efforts to bolster professionals in our 
industry, and for listening to me today.

                                 ______
                                 

    Mr. Lamborn. Thank you.
    I also thank all the panel members for their testimony.
    I would like to remind Members that Committee Rule 3(d) 
imposes a 5-minute limit on questions.
    I will now recognize Members for any questions they may 
wish to ask the witnesses. We will start with subcommittee 
members, then full committee members, then Members of the 
Congress who are not on the committee.
    The first question is to anyone who wants to weigh in. In 
your opinion, do you believe that the Gold King Mine spill 
might have been prevented if EPA had had a qualified mining 
engineer on the site who was involved with the remediation 
process?
    Mr. Freeman. I strongly believe all problems are solved 
with talent, and I think the more talent you can have and can 
bring to bear, both in terms of the discipline expertise that 
people have, as well as just pure talent, it certainly could 
have benefited from that.
    With respect to people that would be employed by the 
Federal agencies, I think there is a real challenge there, 
because the Federal agencies have the same demographic 
challenges as the industry has, and probably even more so. They 
also typically have pay compensation levels that are 
substantially below the industry. So, I think increasing the 
talent in all those agencies, including the talent that could 
be brought by mining engineers, would have been very important.
    Mr. Lamborn. Dr. Miller or Ms. Nuttbrock?
    Dr. Miller. Yes, I totally agree. The issues are technical, 
and to have an appreciation of the underground environment, 
understanding geo-mechanics, rock mechanics, soil mechanics, 
that is what mining engineers do. The protocols that are in 
place, there are best industry practices that are associated 
with that which were not followed.
    I am a huge advocate for eliminating some of these issues, 
to integrate technology that is being used in the industry 
currently, and to collaborate with government agencies.
    Ms. Nuttbrock. Sure. I will just comment by saying in 
Wyoming there was a lot of effort put toward that collaborative 
nature. It is the mining operators working with the regulatory 
community, and a lot of times the mine operators themselves are 
telling the regulators how this is supposed to work, how this 
approach is supposed to work, in the technicalities of a 
particular mine.
    Like I said, an in situ uranium mine is dramatically 
different than a surface coal mine. In a lot of instances in 
Wyoming, for example, we had to regulate a mine's operation, 
and you needed everybody from a soil scientist, to the 
vegetation experts, to the hydrologists, and the geologists--
you needed that entire spectrum. But it would have been very 
helpful to have someone on staff, mining engineers on staff, 
who understood the full cradle-to-grave operation of a mine.
    Dr. Miller. It is also about risk assessment. If you do not 
understand the dynamics of how those mines were built and 
designed, it is hard to figure out what the risks are.
    Mr. Lamborn. Dr. Miller, it has been suggested that maybe 
the bill should be expanded to include not only mining and 
metallurgy engineering but also metallurgy. Can you tell me 
what goes on in the Colorado School of Mines and how that might 
make the bill a better bill?
    Dr. Miller. Within SME, we actually incorporated mining 
engineering and efforts with mineral processing and extracting 
metallurgy, and the reason for that is the programs associated 
with extracting metallurgy are even in more dire shape than the 
mining programs.
    There currently are six departments across the country 
employing some 22 faculty. Of those 22 faculty, 10 are eligible 
for retirement within 2 years. So, if you look at the dynamics 
of those programs, we will lose them if there is not some sort 
of interventions that are taking place.
    Mr. Lamborn. Mr. Freeman, a minute ago you touched on the 
need for better representation in the Federal workforce by 
trained mining engineers. Could you elaborate on that just a 
little bit more? I had asked you in the context of the Gold 
King Mine, but just in general, what would be your advice?
    Mr. Freeman. The advice is first just to have a very strong 
cadre of talent within those Federal agencies. The Academies' 
report recommended improving those methods within the Federal 
agencies for recruitment, development, and retention of talent.
    The other thing I would add personally, is I am very 
involved in working with communities in the mining industry, 
and increasingly the citizenry is concerned about that 
interface between natural resource recovery and reclamation. 
There are going to be increasing pressures on the Federal 
talent who stand at that interface. I think we need to try to 
make sure we have a strong cadre of talent there.
    Mr. Lamborn. OK. Thank you.
    I will now recognize Representative Hardy for his 
questions.
    Mr. Hardy. Thank you.
    Mr. Freeman, in your testimony you talked about the steady 
decline in the number of U.S. mining engineers over the last 30 
years. What role, if any, have the universities played in this 
effect?
    Mr. Freeman. I would have nightmares if I was trying to 
manage state institutions in the context of the access they 
have to dollars. It is a really difficult problem, and one of 
the challenges there is that the metrics for a lot of the 
universities are research dollars and numbers of Ph.D.s that 
are granted. All 14 of the mining programs are state-funded 
programs; so, there is a lot of pressure on trying to manage 
the university-level budget.
    In that, when we graduate a very small number of mining 
engineers, we do not need a huge number. In total, in the 
United States in the last 40 years, we have graduated 12,000. 
If you spread that over 40 years, that is 300 a year. That is 
not a lot to amortize the cost of the minerals education in 
engineering at the university level. It is one of the most 
expensive education programs on these campuses.
    One of the important and critical components of the erosion 
of that broad support that we had is it is just a very 
expensive program to have. So, the bill that you are 
contemplating here and in support of is to put the research 
behind that so the universities can justify this effort. As a 
result, we have about half the programs that we started with 20 
years ago.
    Mr. Hardy. Thank you.
    Ms. Nuttbrock, has the lack of mining engineers played a 
role over the years in the process of getting permitting done 
for mining projects on Federal lands? Has that been a cause and 
effect? And if so, can you elaborate a little bit.
    Ms. Nuttbrock. Oh, certainly. I do believe that there is a 
cause and effect relationship there. Take, for example, 
underground coal gasification. New technology in Wyoming, just 
a year ago when I left the DEQ, they had just approved a permit 
for underground coal gasification. There are constantly bright 
minds thinking about better ways to extract the resource and 
less environmentally damaging ways of extracting the resource. 
If we had people working on the regulatory side of things who 
were up to speed with those up and coming technologies and the 
research that is going on in the universities, that would 
absolutely put state programs up to par and able to react and 
review documents more quickly and process permits more quickly.
    Mr. Hardy. Another question for you. The regulators you 
discussed that are basically relying on the operators 
themselves for the technology and an understanding of what 
their job is supposed to be, do we sometimes at the Federal 
level forget what our obligations are and who we are working 
with, that we are partners?
    Ms. Nuttbrock. I would like to comment on that first, if I 
could. And again, Wyoming is a wonderful place. The mining 
environment, the political environment, and the people who are 
working in Wyoming in the mining industries are very much 
engaged with the regulatory community as well; and I mentioned 
that that might be a little bit rare. In working with my former 
colleagues out in the Eastern region, it is definitely a little 
rare because maybe that was not the case. We are working in 
lockstep with the people who are regulating and mining.
    But it is true, yes. For rare elements resources and, 
again, the new technologies, we are learning together and we 
are learning from the operators.
    Mr. Hardy. I have a quick question to Dr. Miller.
    Dr. Miller, the shortage of mining engineers, can you put 
in perspective what the potential crisis could be over the 
coming years to our economy, to the country at large?
    Dr. Miller. It is huge, and it is kind of a vicious circle. 
If you do not have the faculty to teach and those faculty are 
not capable of getting the research required to get tenure, 
then the academic programs themselves suffer. They do not have 
the financial or the manpower, the talent to produce 
undergraduates. Put straightforward, a major talent crisis that 
occurred for undergraduates in the early 2000s, there was just 
nobody to hire. These operations are going to experience 
tremendous challenges associated with that. They are going to 
go abroad, or they are going to bring international people 
here. There is no other solution to it. And it is a huge 
security issue.
    Mr. Hardy. Thank you. My time has expired.
    Mr. Lamborn. Chairman Bishop.
    Mr. Bishop. Thank you.
    Dr. Miller, let me start with you. I am an old teacher, 
Liberal Arts though. People always talk about how it is 
important to have people working on the ground in the business 
world. But if I understand what you are telling me, there are 
few people who are graduating as mining Ph.D.s, few of those 
want to become teachers, and few of those who actually want to 
become teachers can get through the tenure process; and that 
becomes like a death spiral.
    Dr. Miller. That is exactly right.
    Mr. Bishop. So, what we are talking about is we need as a 
government to try to increase people to go into the industry, 
to go into the Federal workforce, but also who can become 
teachers. So, the lessons that are taught in the classroom, 
that becomes extremely significant.
    Dr. Miller. Without question, and you have hit it right on 
the head. It is a spiral. It comes with research dollars, and 
it comes through the education; and the working degree in the 
mining industry is typically still the undergraduate degree. 
So, to bring qualified people into the graduate programs is a 
struggle, particularly with the salaries that are being made in 
industry.
    Mr. Bishop. OK. So a lot of the needs we are going to have 
in future research with you will be in mine reclamation.
    Dr. Miller. Yes.
    Mr. Bishop. And that has to be done in the classroom? So 
how is what happens in the classroom so significant not only 
for the Federal workforce but also for the industry workforce?
    Dr. Miller. One of the great things about mining is we do a 
lot in environments at actual mines or in laboratory 
facilities. We have a unique collaboration with industry in 
that we do an awful lot of our teaching at industrial 
facilities. The concept is we reinforce engineering principles 
and fundamentals at sites, and that is where that collaboration 
between government, industry, and academia will work 
effectively. Federal grants, we do that work at industry sites, 
and the promulgation of the knowledge base comes back to 
government as well.
    Mr. Bishop. Mr. Freeman, let me ask you a quick question. 
We had another hearing down in New Orleans, at that time a 
program at LSU. We talked about how fewer people are going into 
the engineering process, but a lot more are going into the 
regulatory stream, to become regulators. It would be my 
intention, though, that if you are talking about regulators on 
the Federal side dealing with mine safety, that this kind of 
background would be essential.
    Do you also think it would be profitable for somebody who 
is going to become a regulator to have some practical 
experience, like you did, in the industry before they become a 
regulator?
    Mr. Freeman. A real good example, and we in the industry 
talk about this, the idea of having a mine inspector who does 
not have industry experience would be really frightening. You 
really need that foundation of industry experience to be able 
to go forward.
    Mr. Bishop. But they have to have the academic background 
before they get that. There are several steps you have to go 
through.
    Mr. Freeman. It is just like with any stepping of careers. 
You would like ideally 10 years' worth of really good practical 
experience in the field and then be able to employ that in the 
regulatory environment.
    Mr. Bishop. So, for both of you, the tenure process is 
really dependent upon grants to fund research. That says 
something negative about the tenure process, but it is the 
reality which we face.
    Let me ask you, Ms. Nuttbrock, obviously to get somebody in 
the Ph.D. program, you have to have an undergraduate program. 
To get somebody there, you have to have somebody in public 
schools, high school and K-12, who is excited about it. 
Oftentimes, people going into engineering, there has to be 
something that is really exciting or a chance to succeed and do 
something really cool, and we find that in other engineering 
areas.
    How do we get kids in K-12 to become excited about starting 
this process?
    Mr. Freeman. You bring them in.
    Ms. Nuttbrock. Thank you for asking that, because I think 
that is the missing link in this whole cycle. We still need to 
get kids interested in this industry. From talking with a 
number of you today, I know that the outreach program here at 
the Edgar Mine is much larger than I thought it was. But that 
is the fact, and I wonder if there is a mechanism in your bill 
that you could write in to say that with the Federal funding, 
it would require some collaboration with high schools and 
bringing them underground. Or in my industry, what kid would 
not like riding on the back of a TBM?
    Mr. Bishop. That may not be the vehicle to accomplish that, 
but it is something we need to look at.
    I only have 10 seconds left, but sometime you have to tell 
me what tunnel design actually means. I don't have enough time 
to get into it.
    Mr. Lamborn. If the Chairman will wait----
    Mr. Bishop. Do you put some carpeting down----
    [Laughter.]
    Mr. Lamborn. You can answer that question.
    Ms. Nuttbrock. Sure. My background is geological 
engineering. We put tunnels in for highways, railroads. You 
drove through some tunnels coming up here. Water conveyance 
tunnels, I do a lot of those, and they are becoming huge in 
diameter. In Dallas right now, there is due next week a 40-
foot-diameter flood control tunnel structure, 40-foot diameter 
for 5 miles long. So, flood control, a lot of different 
utilities, and our aging infrastructure in our cities is a huge 
market.
    Tunnel design is looking at the geology, looking at the 
groundwater, looking at the type of tunnel, looking at the 
excavation methodology, what you are going to do with the muck, 
how you are going to support that opening, how you are going to 
tie it in to the rest of the utilities.
    You would not believe what is under the city in terms of 
the utilities. It is just phenomenal, and that is the beauty of 
our industry. It is underground, out of sight, and out of mind; 
and that is kind of the way we like it. It is a fascinating 
industry, and it ties into mining engineering hand-in-hand.
    Mr. Bishop. Thank you.
    Mr. Lamborn. Thank you.
    Representative Perlmutter.
    Mr. Perlmutter. Thank you. The other Members of this 
hearing have asked all the right questions. I am not sure I 
have any for the panelists. Thank you very much.
    Obviously, here in Colorado, and it also applies to the 
Rocky Mountain West--Wyoming, Utah, Nevada--we love our 
outdoors. That is why we are here. We enjoy such an abundance 
of natural resources that are so necessary to everything we do 
in commerce, whether it is construction, energy, or technology, 
the rare earth minerals in my phone, all these kinds of things; 
but we always like to be outside climbing, skiing, fishing, 
whatever it might be.
    What I see, and the importance of this bill that 
Congressman Hardy has proposed, is we have to have the best and 
the brightest to continue to be able to build these tunnels, to 
extract the minerals that we need for commerce, and to do it in 
a way that over time is environmentally sound, as you said, so 
that we can continue to enjoy our outdoors.
    Mr. Freeman, let me start with you. In terms of this bill, 
you had language, ``the importance of collaborative efforts 
among government, industry, and educational institutions to 
create and support new approaches in higher education that can 
lead to a range of mining and energy jobs.'' Do you think this 
bill helps us get that done?
    Mr. Freeman. Absolutely.
    Mr. Perlmutter. How?
    Mr. Freeman. Well, it builds a foundation for research that 
will support the universities, the education, and will support 
the tenure track of faculty members. I think all of us, going 
to college, were inspired by our ability to make a difference 
with the educations we have had and those professors that we 
learned under as mentors. I think they become a real critical 
component to that; and any damaging of that pipeline for those 
people, damages the entire U.S. economy in the end.
    Mr. Perlmutter. Absolutely. The collaborative piece of 
this, which you talked about in your testimony--let's go back 
to the Gold King Mine disaster that we talked about a few 
minutes ago. Obviously, water was involved, the design of the 
several different mines out there. I mean, this is very 
complicated stuff, and I see a place both for the university to 
come in as kind of a consultant, but you want to have people 
who have the right qualifications to deal with the different 
tangents of the thing.
    Ms. Nuttbrock, could you comment on that?
    Ms. Nuttbrock. I can. It is almost as if, in order to 
regulate to the extent that we would like to, you have to have 
an infinite understanding of the history of that mine, how it 
was built over the course of many decades. The retention 
systems and the water control systems are often aging, perhaps, 
and they need to be replaced. It is almost as if, in order to 
regulate, you need to know the history of the mine and how it 
has been operating. It has probably changed hands from one 
operator to the next over the course of its life, and they may 
have taken different design approaches. It is complex, and it 
is not as simple, I don't think, as having more mining 
engineers on the regulatory side. It is that collaborative 
piece.
    You have a mining engineer on the regulatory side working 
with the mining engineer on the operator side, and they know 
that mine inside and out. When one of them says there is a 
potential for that toe to fail, they know what they are talking 
about, and they can go back and look at the design records and 
the as-builts for those structures and understand if that is, 
in fact, a failure point.
    But, it is that collaborative piece, without question.

    Mr. Perlmutter. A couple more seconds.

    Dr. Miller, we are in the Edgar Mine. As a professor, do 
you bring students here? Do they benefit by actually being 
here? Is this something that this legislation might be able to 
provide some resources to you to continue to develop a program?

    Dr. Miller. That would be fantastic. The unique element of 
the Edgar Mine--and it is just not solely limited to mining 
engineering. We teach, I think, parts of 19 courses in 6 
different academic majors that are done here. One of the 
reasons this facility is great, is it allows you to apply 
engineering fundamentals on a project-oriented type of class. 
The students can actually see the dynamics of what they are 
doing, and it is a unique venue.

    But the biggest part of this is, it is about solving open-
ended problems. It is about safety ethic. It is about the 
dynamics of what it takes to be a good, competent engineer; and 
you can only learn that in a unique environment like this. It 
is a great place.

    Mr. Perlmutter. Thank you, Mr. Chair. I yield back.

    One last question for Dr. Miller. Do any of the 13 other 
mining schools in the country have a mine like this as part of 
their classroom experience?

    Dr. Miller. Yes. Out of the 14, there are 4 universities 
that have school mines, the University of Arizona, Montana 
Tech, and the University of Missouri at Rolla, which is now 
Missouri Science and Technology.

    Mr. Perlmutter. Excellent.

    Mr. Lamborn. I thank the witnesses for their valuable 
testimony, and the Members for their questions. The members of 
the committee may have some additional questions for the 
witnesses, and we ask that you respond to these in writing. 
Under Committee Rule 4(h), the hearing record will be held open 
for 10 business days for these responses.

    I, and the other Members, want to thank the Colorado School 
of Mines for opening up this facility and for their work in 
making this available today. I want to thank the committee 
staff for all of their work so that we could take advantage of 
this unique venue.

    Before I conclude, I would ask unanimous consent that we 
enter into the record the letters of support for this 
legislation from the following schools: the University of 
Alaska at Fairbanks, Colorado School of Mines, Missouri 
University of Science and Technology, Montana Tech, University 
of Nevada at Reno, New Mexico Tech, Penn State, Southern 
Illinois University at Carbondale, South Dakota School of 
Mines, and West Virginia University, as well as the Nevada 
Division of Minerals.

    If there is no objection, so ordered.

    If there is no further business, without objection, the 
committee stands adjourned.

    [Applause.]

    [Whereupon, at 11:13 a.m., the committee was adjourned.]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Comment left at Hearing in Support from Eddie Kochman of 
Northglenn, Colorado

Letters in Support:

    <bullet>  Benjamin M. Statler College of Engineering and 
Mineral Resources, West Virginia University

    <bullet>  Colorado School of Mines

    <bullet>  Illinois Association of Aggregate Producers

    <bullet>  Illinois Coal Association

    <bullet>  Illinois Mining Institute

    <bullet>  Mackay School of Earth Sciences and Engineering, 
University of Nevada, Reno

    <bullet>  Missouri University of Science and Technology

    <bullet>  Montana Tech

    <bullet>  New Mexico Tech

    <bullet>  Penn State College of Earth and Mineral Sciences

    <bullet>  South Dakota School of Mines & Technology

    <bullet>  Southern Illinois University

    <bullet>  State of Nevada Commission on Mineral Resources

    <bullet>  University of Alaska Fairbanks College of 
Engineering & Mines

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
